No: 20-955
IN THE
SUPREME COURT OF THE UNITED STATES
DELVA NEWHOUSE,
as Administratrix of the Estate of,
WILLIAM PERRY NEWHOUSE III,PETITIONER,
-VSETHICON INC, et al,
RESPONDENT,
/

STATE OF WEST VIRGINIA )

)ss.

COUNTY OF CLAY

CERTIFICATE/PROOF OF SERVICE

)

On
l
.2021, The undersigned served a copy of this Petitioner’s
Pro Se Petitioner or Rehearing(for Fraud and Adulterated Medical Devise); Petitioner’s
Certificate Rehearing Relief Substantial Circumstances For Controlling Effect;
Petitioner’s Certificate of Compliance; and Certificate/Proof of Service. Upon Respondents
ETHICON Corporate Attorneys- Phillip J. Combs, Natalie B. Atkinson, from Thomas
Combs, and Spann, PLLC, at 300 Summers St, Suite 1380, PO Box 3824, Charleston,
West Virginia, 25338-3824; and Respondents ETHICON Corporate Appeal AttorneysSusanna M. Moldoveanu, at Butler Snow LLP, 6075 Poplar Ave. Suite 500, Memphis, TN
37201. By placing a copy of said documents in a sealed legal envelope, properly
addressed, with U.S. First Class Postage being completely prepaid in full and depositing
it in the U.S. Mail.
I/Plaintiff declares that the above statements are true to the best of my knowledge,
information, and belief. See 28 USC 1746 et seq.
Date:
XC: Respondents Attorneys
File

ectfullv Submitted

PETITIONER IN PRO SE
DELVA NEWHOUSE
865 CARBIDE RD
GLEN, WEST VIRGINIA 25088
(304) 388-5045

